IN THE
SUPREME COURT OF THE UNITED STATES

CAROLYN R. DAWSON. pro se
Petitioners,
v.
KEVIN J. PAKENHAM, et al
Respondent,
CERTIFICATE OF COMPLIANCE

excluding the parts of the Petition that are exempted by
Supreme Court Rule 33.1(d). Included are words under subtitle
Questions Presented, 116 words, and Petition for Writ 726
words for a maximum of 4,791 words.
true andllor ar<t

penalty of PerJury that the foregoing is

Executed on August 14, 2020.
CAROLYN R. DAWSON, Pro se
9590 Minnesota Street, Apt. 3110
Houston, TX 77075
Tel: (346) 400-3278
Fax: (713) 391-8357
jusu7895@gmail.com

